                

                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Review of Hotline Complaint on
                     EPA’s Pre-Award Activities for
                     Multiple Award Contracts at the
                     National Computer Center
                     Report No. 13-P-0220                    April 15, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:	                               Rudolph M. Brevard
                                                    Warren Brooks
                                                    Scott Sammons




Abbreviations

EPA           U.S. Environmental Protection Agency
NCC           National Computer Center
OIG           Office of Inspector General




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                            13-P-0220
                                                                                                       April 15, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Review of Hotline Complaint on EPA’s
We reviewed pre-award               Pre-Award Activities for Multiple Award
activities for multiple award       Contracts at the National Computer Center
contracts at the U.S.
Environmental Protection
Agency’s National Computer           What We Found
Center. The review was
conducted in response to an         We found no evidence to support allegations made in the complaint. However,
Office of Inspector General         we determined that the EPA could improve communications with vendors during
hotline complaint. The              pre-award activities. We found instances where there were opportunities to
complaint alleged that:             improve communication with vendors that could help thwart misunderstandings
                                    and confusion related to the federal acquisition process. Federal guidance
     The NCC did not provide a     recommends that information be communicated to relevant personnel at all levels
      fair opportunity to all       within an organization, including outside organizations. There was no evidence
      vendors in a recent request   that the NCC communicated guidelines or regulations related to acquisitions to
      for proposal for the          the hotline complainant (a vendor) during initial pre-award activities. Without
      acquisition of information    communicating guidelines and regulations in initial communications with vendors,
      technology equipment.         misunderstandings and false expectations related to the acquisition process
                                    could arise.
     EPA contractor personnel
      disclosed misleading           Recommendations and Agency Corrective Actions
      information to a vendor
      regarding the outcome of      We recommend that the Director, National Computer Center:
      the selection process.
                                        1. 	 Develop disclosure language outlining communication protocols between
This report addresses the
                                             the agency and vendors to include all written communications with
following EPA Goal or
                                             vendors during pre-award activities.
Cross-Cutting Strategy:
                                        2. 	 Distribute a memorandum to managers emphasizing the importance of
     Strengthening EPA’s
                                             implementing protocols developed in response to recommendation 1.
      workforce and capabilities.
                                    The agency agreed with our recommendations and developed a communications
                                    protocol and guidelines and communicated those to all NCC staff.




For further information, contact
our Office of Congressional and
Public Affairs at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2013/
20130415-13-P-0220.pdf
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                 THE INSPECTOR GENERAL




                                            April 15, 2013

MEMORANDUM


SUBJECT:	 Review of Hotline Complaint on EPA’s Pre-Award Activities for
          Multiple Award Contracts at the National Computer Center
          Report No. 13-P-0220


FROM:         Arthur A. Elkins Jr.


TO:	          David Updike, Director
              National Computer Center
              Office of Technology Operations and Planning, Office of Environmental Information


This is our report on the subject audit conducted by the Office of Inspector General of the U.S.
Environmental Protection Agency. This report contains findings that describe the problems the OIG has
identified and corrective actions the OIG recommends. This audit was conducted in response to an OIG
hotline complaint. This report provides the summary of our audit related to the allegations made in the
complaint.

The OIG received a hotline complaint alleging that the EPA may have committed improprieties in the
bidding process for EPA network security hardware. Specifically, the allegations claimed that:

   	 The EPA’s National Computer Center did not provide a fair opportunity to all vendors in the
      recent request for proposal for the acquisition of information technology equipment. In
      particular, the request for proposal was written in a manner that only allowed for one specific
      vendor to make a bid proposal.
   	 EPA contractor personnel, tasked with testing the equipment during the market research phase of
      the pre-award activity, disclosed misleading information to a vendor regarding the outcome of
      the selection process.

We conducted our audit from August 2012 to April 2013 at the EPA’s NCC in Research Triangle Park,
North Carolina. We performed this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient and
appropriate evidence to provide a reasonable basis for our findings and conclusions based on the audit




13-P-0220                                                                                                1
objectives. We believe the evidence obtained provides a reasonable basis for our recommendations and
conclusions.

As part of our analysis, the OIG reviewed relevant EPA procedures and federal regulations to obtain an
understanding of guidelines and rules related to pre-award activities for multiple award contracts. We
also reviewed contract files and other documents and communications related to the acquisition of the
information technology equipment, as well as pre-award activity documentation. Further, we conducted
interviews with the following individuals to determine whether the EPA has followed agency policies
and procedures related to pre-award activities for multiple award contracts:

   	 The complainant, who provided details of the OIG hotline complaint.
   	 EPA contractor personnel who were tasked with testing the equipment during the market
      research phase of the pre-award activity.
    EPA personnel from the Office of Administration and Resources Management’s Office of
      Acquisition Management, responsible for managing the acquisitions and maintaining contract files
      related to the acquisitions.
   	 EPA personnel from the NCC responsible for initiating the acquisition of the information
      technology equipment.

We found no evidence to support allegations made in the complaint. However, we determined that the
EPA could improve communications with vendors during pre-award activities. During our review of
contract documentation, we identified email communications between the EPA and the vendor who had
subsequently filed the hotline complaint, attempting to clarify the vendor’s interpretation of acquisition
procedures and regulations. We recognized instances where there were opportunities for improvement in
the communication. Office of Management and Budget Circular A-123, Management’s Responsibility
for Internal Control, states “Information should be communicated to relevant personnel at all levels
within an organization. The information should be relevant, reliable, and timely. It is also crucial that an
agency communicate with outside organizations as well, whether providing information or receiving it.”
There was no evidence that the NCC included any communications or disclosures to the complainant of
any federal or agency protocols or regulations related to acquisitions during initial pre-award activities.
Without communicating guidelines and regulations in initial communications with vendors,
misunderstandings and false expectations related to the acquisition process could arise.

Recommendations and Agency Corrective Actions

We recommend that the Director, National Computer Center:

   1.	 Develop disclosure language outlining communication protocols between the agency and 

       vendors to include all written communications with vendors during pre-award activities. 


   2.	 Distribute a memorandum to managers emphasizing the importance of implementing protocols
       developed in response to recommendation 1.

The agency agreed with our recommendations and developed a communication protocol and guidelines
and communicated those to all NCC staff.




13-P-0220                                                                                                 2
The agency’s response to our discussion draft report included proposed corrective actions and
completion dates. The agency provided us with documentation that the recommendations have been
implemented. Our analysis confirmed the agency completed the corrective actions on March 14, 2013.
We have no objections to the further release of this report to the public. We will post this report to our
website at http://www.epa.gov/oig.

If anyone has any questions regarding this report, please contact Melissa Heist, assistant inspector
general for audit, at (202) 566-0899 or heist.melissa@epa.gov; or Rudolph M. Brevard, product line
director, at (202) 566-0893 or brevard.rudy@epa.gov.




13-P-0220                                                                                                    3
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                   RECOMMENDATIONS                                                         POTENTIAL MONETARY
                                                                                                                            BENEFITS (in $000s)

    Rec.    Page                         Subject                         Status1       Action Official        Completion   Claimed    Agreed-To
    No.      No.                                                                                                Date       Amount      Amount

     1        2     Develop disclosure language outlining                   C               Director,          03/14/13
                    communication protocols between agency and                     National Computer Center
                    vendors to include all written communications with
                    vendors during pre-award activities.

     2        2     Distribute a memorandum to managers                     C               Director,          03/14/13
                    emphasizing the importance of implementing                     National Computer Center
                    protocols developed in response to
                    recommendation 1.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0220                                                                                                                                         4
                                                                                 Appendix A

        Agency Response to Discussion Draft Report


                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY 

                             RESEARCH TRIANGLE PARK, NC 27711 



                                                                            OFFICE OF

                                                                   ENVIRONMENATAL INFORMATION 



                                       March 19, 2013

MEMORANDUM

SUBJECT:      Response to Office of Inspector General Discussion Draft No. OMS-FY12-0012,
              “Improved Communications with Vendors Needed for EPA’s Pre-award
              Activities for Multiple Award Contracts at the National Computer Center,”
              dated 2/28/2013

FROM:         David Updike, Director
              National Computer Center
              Office of Technology Operations and Planning

THRU:         Vaughn Noga, Director
              Office of Technology Operations and Planning
               and Agency Chief Technology Officer

TO:           Rudolph M. Brevard, Director
              Information Resources Management Audits
              Office of Inspector General

Thank you for the opportunity to respond to the issues and recommendations in the subject audit
report. Following is a summary of the Office of Technology Operations and Planning’s (OTOP)
overall position, along with my position on each of the report recommendations. I have provided
below high-level corrective actions and estimated completion dates.

AGENCY’S OVERALL POSITION

I concur with the recommendations contained in the report. Communications protocol and
guidelines have been developed and communicated to all National Computer Center (NCC) staff
with specific emphasis on effective management and oversight of all communications with
vendors during potential and active procurement solicitation.




13-P-0220                                                                                         5
AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

Agreements

No. Recommendation                            High Level Intended Corrective         Estimated
                                              Action                                 Completion
                                                                                     Date
1    Develop disclosure language outlining    Develop communication protocol         3/22/13
     communication protocols between          and guidelines for communicating
     agency and vendors to include all        with vendors during pre-award
     written communications with vendors      activities.
     during pre-award activities.
2    Distribute a memorandum to managers      Distribute memo to all NCC staff       3/22/13
     emphasizing the importance of            emphasizing effective management
     implementing protocols developed in      and oversight of all
     response to recommendation 1.            communications with vendors
                                              during pre-award activities.

CONTACT INFORMATION 


If you have any questions regarding this response, please contact me at 919-541-0780. 


cc: 	Scott Dockum, OEI Audit Follow-up Coordinator
     Anne Mangiafico, OTOP Audit Coordinator




13-P-0220                                                                                         6
                                                                               Appendix B

                                    Distribution
Office of the Administrator
Director, National Computer Center, Office of Technology Operations and Planning,
       Office of Environmental Information
Assistant Administrator for Environmental Information and Chief Information Officer
Assistant Administrator for Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Assistant Administrator for Environmental Information
Director, Office of Technology Operations and Planning, Office of Environmental Information
Director, Office of Acquisition Management, Office of Administration and Resources
       Management
Audit Follow-Up Coordinator, Office of Environmental Information
Audit Follow-Up Coordinator, Office of Administration and Resources Management




13-P-0220                                                                                     7
